Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    OVER FOUR MILLION
    MEDICARE SUMMARY
    NOTICES MAILED TO
  BENEFICIARIES WERE NOT
     DELIVERED IN 2012




                          Stuart Wright
                    Deputy Inspector General
                  for Evaluation and Inspections

                         January 2014
                        OEI-03-12-00600
EXECUTIVE SUMMARY: OVER FOUR MILLION MEDICARE SUMMARY NOTICES
MAILED TO BENEFICIARIES WERE NOT DELIVERED IN 2012
OEI-03-12-00600

WHY WE DID THIS STUDY

As part of its efforts to reduce Medicare fraud and abuse, the Centers for Medicare & Medicaid
Services (CMS) relies on beneficiaries to report suspicious activity identified on their Medicare
Summary Notices (MSNs). MSNs are paper forms that summarize processed claims. Claims
processors are responsible for providing MSNs to beneficiaries. If MSNs go undelivered,
beneficiaries do not have the opportunity to review the services or items billed to Medicare. The
Department of Health and Human Services’ FY 2011 Agency Financial Report identified CMS’s
lack of a policy for addressing undelivered MSNs as a weakness in the agency’s financial
oversight of Medicare contractors. This study provides information on the quantity of undelivered
MSNs and the procedures that claims processors use to handle undelivered MSNs.

HOW WE DID THIS STUDY

We requested from CMS any policies regarding undelivered MSNs. For claims processors in
operation during 2012, we reviewed their written procedures and survey responses regarding
tracking and followup procedures for undelivered MSNs. From claims processors’ survey
responses, we determined the number of undelivered MSNs returned in 2012. In addition, we
reviewed a purposive sample of 1,445 undelivered MSNs returned to 3 claims processing
companies during the second full week of January 2013. For each undelivered MSN in our
sample, we reviewed beneficiary addresses; identified compromised—e.g., stolen or misused—
beneficiary and provider numbers; and calculated total Medicare-allowed amounts.

WHAT WE FOUND

Claims processors reported 4.2 million MSNs as undeliverable to beneficiaries. Without CMS
guidance on undelivered MSNs, claims processors’ tracking and followup procedures are limited
and varied. Claims processors identified incorrect or invalid beneficiary addresses as the most
common reason why MSNs were undeliverable. We found that there continues to be a problem
with incorrectly populated beneficiary addresses in the data systems that claims processors use to
process MSNs. Some of the undelivered MSNs reviewed were associated with compromised
beneficiary or provider identification numbers.

WHAT WE RECOMMEND

Undelivered MSNs that are returned to claims processors cannot be reviewed by beneficiaries as
a defense against fraud. Therefore, CMS should reduce the likelihood that MSNs are
undeliverable by ensuring that the address information that claims processors use to print
addresses on MSNs is complete and properly formatted. To help promote consistency and
efficiency in activities related to undelivered MSNs, CMS should provide guidance to claims
processors about whether and how to track and follow up on undelivered MSNs. CMS
concurred with our recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................3 

Findings........................................................................................................6 

           Claims processors reported 4.2 million MSNs as undeliverable                                        

           to beneficiaries .................................................................................6 

           Claims processors’ procedures for tracking and following up on 

           undelivered MSNs are limited and varied .......................................7

Conclusion and Recommendations ............................................................10 

           Agency Comments and Office of Inspector General Response.....12 

Appendixes ................................................................................................13 

           A: Number of Undelivered MSNs Reported by                                              

           Claims Processors for 2012 ...........................................................13 

           B: Agency Comments ...................................................................14 

Acknowledgments......................................................................................16 

                   OBJECTIVES
                   To determine:
                   1.	 the number and nature of undelivered Medicare Summary Notices
                       (MSN) returned to claims processors; and
                   2.	 the extent to which Medicare claims processors track and follow up on
                       undelivered MSNs.

                   BACKGROUND
                   Medicare Summary Notices
                   The Centers for Medicare & Medicaid Services (CMS) uses claims
                   processors to perform the day-to-day claims administration for the
                   Medicare fee-for-service program.1 As part of their responsibilities, claims
                   processors must provide MSNs to approximately 37 million Medicare
                   beneficiaries.2
                   MSNs are the primary vehicle by which beneficiaries are notified of
                   decisions on their Medicare claims.3 An MSN is a paper form sent to a
                   beneficiary that summarizes the claims that have been processed on his or
                   her behalf.4 MSNs list the services billed to Medicare, what Medicare
                   paid for the services, and what the beneficiary may owe the provider.
                   MSNs are sent at least quarterly to beneficiaries for whom claims were
                   processed.
                   MSNs and Fraud Detection
                   MSNs serve as a fraud detection tool that beneficiaries can use to ensure
                   that Medicare is paying for services or items that were actually provided to
                   them. CMS recommends that beneficiaries check their MSNs carefully
                   for suspicious charges, as services or items appearing on an MSN that
                   were never provided may be a sign of fraudulent activity. In June 2013, a
                   CMS official stated that beneficiaries’ “best defense against fraud is to
                   check their MSNs for accuracy and to diligently protect their health
                   information for privacy.”5 An OIG report found that in 2001, almost half

                   1
                     The fee-for-service program includes items and services covered by Medicare Parts A 

                   and B. 

                   2
                     CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 21 § 10. 

                   3
                     Ibid. 

                   4
                     A beneficiary may submit a claim to Medicare for direct reimbursement using Form

                   CMS 1490S (Patient’s Request for Medical Payment). In these cases, reimbursement 

                   checks are included with MSNs sent to beneficiaries.

                   5
                     CMS, Medicare Urges Seniors to Join the Fight Against Fraud. Accessed at
                   http://www.cms.gov/Newsroom/MediaReleaseDatabase/Press-Releases/2013-Press-
                   Releases-Items/2013-06-06.html on June 10, 2013.


Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   1
                   of beneficiaries who thought they had experienced Medicare fraud
                   reported it and most beneficiaries regularly read their claim statements.6
                   In recent years, CMS has worked with beneficiaries to redesign the MSN
                   to make it easier to spot and report potential fraud on claims submitted for
                   their care. CMS expected to begin mailing the new MSN to beneficiaries
                   in summer 2013.
                   As part of its efforts to reduce Medicare fraud and abuse, CMS relies on
                   beneficiaries to report suspicious activity identified on their MSNs. For
                   example, CMS uses beneficiaries’ complaints of suspected fraudulent
                   billing on their MSNs to enhance its database of compromised beneficiary
                   and provider identification numbers, known as the Compromised Number
                   Checklist (CNC).7, 8 CMS sends an updated CNC to each benefit integrity
                   contractor monthly and incorporates the CNC into its Fraud Prevention
                   System, an initiative to identify aberrant and suspicious billing patterns
                   prior to the payment of claims.
                   Undelivered MSNs
                   MSNs sometimes fail to reach the beneficiaries and are returned to claims
                   processors. If MSNs go undelivered, beneficiaries do not have the
                   opportunity to review the services or items billed to Medicare on their
                   behalf.
                   CMS’s Medicare Claims Processing Manual does not address whether or
                   how claims processors should track and follow up on undelivered MSNs.
                   The Department of Health and Human Services’ (HHS) Agency Financial
                   Report for both fiscal years 2010 and 2011 highlighted CMS’s lack of a
                   policy regarding undelivered MSNs, identifying it as a weakness in the
                   agency’s financial oversight of Medicare contractors.9 These two reports
                   stated that when beneficiaries cannot review their MSNs and notify CMS
                   of any unusual services or charges, improper payments could go
                   undetected.



                   6
                     OIG, Beneficiary Awareness of Medicare Fraud: A Follow Up, OEI-09-00-00590,
                   November 2001.
                   7
                     Beneficiary Medicare identification numbers are known as Health Insurance Claim
                   numbers. Provider Medicare identification numbers are known as National Provider
                   Identifiers. In this report, we refer to beneficiary Medicare identification numbers as
                   “beneficiary numbers” and provider Medicare identification numbers as “provider
                   numbers.”
                   8
                     The CNC includes compromised provider and beneficiary numbers obtained through
                   fraud investigations, reports of security breaches, and complaints from providers or
                   beneficiaries. For example, a beneficiary number may be considered compromised if it is
                   stolen or misused.
                   9
                     HHS, FY 2010 Agency Financial Report and FY 2011 Agency Financial Report,
                   November 15, 2010, and November 14, 2011, respectively.


Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   2
                     The Social Security Administration (SSA) maintains the address data that
                     CMS provides to claims processors. The SSA address database is updated
                     when a beneficiary registers a change of address through SSA or through
                     the United States Postal Service (USPS). In addition, MSNs are sent as
                     first class mail, which is forwarded if the beneficiary has provided the
                     USPS with a forwarding address.
                     Undelivered MSNs and Compromised Numbers. Undelivered MSNs may
                     contain beneficiary or provider numbers that are compromised and have
                     been fraudulently used to bill for services that were never provided.
                     Sometimes, beneficiaries’ or providers’ numbers are stolen or used
                     without their knowledge. Other times, the beneficiaries or providers are
                     complicit in the scheme, receiving payment for the use of their identifiers.
                     If claims billed by fraudulent providers appear on undelivered MSNs,
                     noncomplicit beneficiaries do not have the opportunity to detect that
                     Medicare was billed for services that they never received.

                     METHODOLOGY
                     Data Collection
                     Documentation and Survey Data. We requested from CMS any policies
                     regarding undelivered MSNs. From the 19 claims processors in operation
                     during 2012, we requested standard written procedures used to track and
                     follow up on undelivered MSNs. We requested that claims processors
                     provide the total number of undelivered MSNs returned in 2012, as well as
                     the total amount paid by Medicare for services listed on these undelivered
                     MSNs. In addition, each claims processor completed a survey regarding
                     tracking and followup activities for undelivered MSNs. As part of our
                     survey, we asked claims processors about CMS’s requirements regarding
                     the tracking and review of undelivered MSNs.
                     Undelivered MSNs. For 3 companies that have claims processor contracts,
                     we requested that each collect and send for our review the first
                     500 undelivered MSNs received from January 13 to January 19, 2013.
                     Table 1 shows the types of claims processed by these three companies.


    Table 1: Types of Claims Processed by the Companies That Provided Undelivered MSNs
                                                                                                          Number of Undelivered
      Types of Claims Processed by Three Selected Companies
                                                                                                              MSNs Requested
      Durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS) claims                                             500
      Part A and Part B claims                                                                                                    500
                                                            1
      Part A, Part B, home health, and hospice claims                                                                             500
    Source: OIG analysis of a purposive sample of undelivered MSNs, 2013. 

    1
      This particular company had two claims-processing contracts. A single company may have more than one claims-processing 

    contract. We asked that company to provide the first 500 undelivered MSNs collectively received by its two claims processors. 





Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)                       3
                   Using the claim number(s) appearing on undelivered MSNs, we obtained
                   the most recently updated claim record data from the Medicare National
                   Claims History (NCH) through the Services Tracking, Analysis, and
                   Reporting System (STARS).10 These claim records include the
                   Medicare-allowed amount, the type of service, and the beneficiary and
                   provider numbers.
                   Although we requested 1,500 undelivered MSNs, our purposive sample
                   included 1,445 undelivered MSNs. Examples of the 55 undelivered MSNs
                   that were unusable for our purposes were those that had missing pages or
                   lacked a claim record in the NCH file. Our final sample included
                   398 undelivered MSNs for Part A services, 483 undelivered MSNs for
                   Part B DMEPOS services, and 564 undelivered MSNs for other Part B
                   services. These undelivered MSNs were associated with 5,461 claims
                   contained in the NCH file.11
                   Analysis
                   We reviewed and summarized claims processors’ documentation and
                   survey responses regarding their tracking and followup activities for
                   undelivered MSNs. From claims processors’ survey responses, we
                   determined the number of undelivered MSNs returned to claims
                   processors in 2012.
                   We compared each of the beneficiary and provider numbers on the
                   undelivered MSNs in our sample to the April 2013 CNC to determine
                   whether there were any compromised numbers on claims with allowed
                   amounts greater than $0.00. For each address on the undelivered MSNs in
                   our sample, we determined whether the address had been updated in
                   STARS as of April 2013.12 Finally, we calculated the total allowed
                   amounts associated with claims that appeared in our sample of undelivered
                   MSNs.




                   10
                      STARS extracts claim information from the NCH file. For 98 DMEPOS claims, we
                   accessed NCH file claim information from the Integrated Data Repository. 

                   11
                      We could not locate a claim record on the NCH file for 88 claim numbers that appeared 

                   on undelivered MSNs in our sample. These 88 claims were excluded from our analysis. 

                   Other claims that appeared on the same undelivered MSNs as these 88 claims were 

                   included in our analysis. 

                   12
                      STARS extracts beneficiary information from CMS’s Enrollment Database (EDB).

                   The beneficiary’s mailing contact address in the EDB is populated by address data from

                   SSA and the Railroad Retirement Board. 



Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   4
                   Limitations
                   Our purposive sample of undelivered MSNs is not representative of all
                   undelivered MSNs. It is also not representative of all undelivered MSNs
                   returned to the three companies in our review. Therefore, the results of
                   our analysis are limited to the undelivered MSNs we reviewed.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   5
                   FINDINGS
                   Claims processors reported 4.2 million MSNs as
                   undeliverable to beneficiaries
                   CMS did not monitor how many MSNs failed to reach Medicare
                   beneficiaries during 2012. CMS did not require claims processors to
                   report the number of undeliverable MSNs that were returned to them
                   during calendar year 2012 and none of the claims processors reported to
                   CMS the number of undeliverable MSNs returned that year.
                   In 2012, claims processors mailed 194 million MSNs to beneficiaries.
                   According to claims processors, approximately 4.2 million MSNs were
                   returned as undeliverable in 2012. However, the volume of undelivered
                   MSNs returned in 2012 is likely to be greater than 4.2 million, as 1 of the
                   19 claims processors did not report the number of undelivered MSNs and
                   7 claims processors provided data that did not cover the full calendar year.
                   In addition, two claims processors reported the number of undelivered
                   MSN envelopes—which may each contain multiple MSNs—rather than
                   the number of undelivered MSNs.13 The remaining claims processors
                   reported either counts or estimates that covered the full calendar year.
                   Claims processors’ reports for the number of undelivered MSNs returned
                   in 2012 are shown in Appendix A.
                   Claims processors could not provide the total Medicare payment amounts
                   associated with these undelivered MSNs. The allowed amounts associated
                   with a sample of 1,445 undelivered MSNs returned in January 2013
                   totaled $2.7 million.14
                   Some undelivered MSNs were associated with compromised
                   numbers
                   Of 1,445 undelivered MSNs, 51 included paid claims that were associated
                   with compromised beneficiary or provider numbers. Forty-seven
                   undelivered MSNs were associated with compromised beneficiary
                   numbers, and four undelivered MSNs were associated with compromised
                   provider numbers. The allowed amounts on these undelivered MSNs
                   ranged from $0.11 to $41,546 and totaled $165,983.




                   13
                      According to CMS’s Medicare Claims Processing Manual (Section 10.3.2), if a claims
                   processor’s system allows it to do so, and multiple MSNs are available for mailing, the
                   claims processor may enclose all MSNs in the same envelope.
                   14
                      Our sample included 398 undelivered MSNs for Part A services, 483 undelivered
                   MSNs for Part B DMEPOS services, and 564 undelivered MSNs for other Part B
                   services.


Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   6
                   Claims processors’ procedures for tracking and
                   following up on undelivered MSNs are limited and
                   varied
                   CMS requires claims processors to provide MSNs to Medicare
                   beneficiaries, but it has not issued guidance regarding whether or how to
                   track and follow up on undelivered MSNs. In practice, not all claims
                   processors track or follow up on undelivered MSNs, and those that do
                   utilize a variety of methods. According to CMS staff, when claims
                   processors have requested guidance on the storage of undelivered MSNs,
                   CMS has allowed claims processors to destroy the undelivered MSNs.
                   However, CMS has not issued a written directive to all claims processors
                   on the storage and/or destruction of undelivered MSNs.
                   Although many claims processors track some information
                   regarding undelivered MSNs, activities are inconsistent across
                   claims processors
                   Despite a lack of CMS guidance, 16 of 19 claims processors track some
                   information regarding undelivered MSNs that are returned to them. These
                   activities include tracking the quantity of undelivered MSNs, recording
                   information about undelivered MSNs, and storing undelivered MSNs.
                   Tracking the Number of Undelivered MSNs. Twelve of nineteen claims
                   processors tracked undelivered MSNs to some extent. These claims
                   processors reported using various techniques, including spreadsheets,
                   machines that count the number of returned envelopes containing MSNs,
                   and electronic filing systems that store scanned images of returned MSNs.
                   Seven of these twelve claims processors could provide exact counts of the
                   number of undelivered MSNs returned in 2012.15 Two additional claims
                   processors could provide exact counts for only the returned MSNs that
                   included checks for beneficiaries. Five of these twelve claims processors
                   have written procedures outlining how they track undelivered MSNs.
                   Recording Information About Undelivered MSNs. Six of nineteen claims
                   processors record information about undelivered MSNs, including
                   information listed on undelivered MSNs and information listed on
                   beneficiary checks returned with undelivered MSNs. Among the six claims
                   processors that record any information about undelivered MSNs, the most
                   common pieces of information tracked were the beneficiary number, the
                   beneficiary name, the claims processor contract number, the date the MSN
                   was returned, and—for beneficiary checks returned with undelivered

                   15
                     Three of these seven claims processors were affiliated with one company, which
                   reported an exact count for the collective undelivered MSNs returned to its three claims
                   processors.


Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   7
                   MSNs—the check number. All of these six claims processors have written
                   procedures for tracking information regarding undelivered MSNs.
                   No claims processors track the allowed amounts associated with
                   undelivered MSNs. However, two claims processors track the dollar
                   amounts on beneficiary checks returned with undelivered MSNs. For
                   these claims processors, $3.9 million in checks to beneficiaries were
                   returned with 26,266 undelivered MSNs in 2012.
                   Storing Undelivered MSNs. All but 1 of the 19 claims processors
                   eventually destroy some or all of the undelivered MSNs that are returned
                   to them. Eleven of nineteen store undelivered MSNs by keeping the
                   originals, electronic copies, or both the originals and electronic copies.
                   Four of the nineteen claims processors keep indefinitely only the returned
                   MSNs that include checks for beneficiaries. One claims processor keeps
                   all undelivered MSNs and reported spending $34,282 per year on storage.
                   Eight of the eleven claims processors that store undelivered MSNs have
                   written procedures regarding their storage practices.

                   Half of claims processors attempt to verify addresses on
                   undelivered MSNs, but few conduct any further followup
                   Ten of nineteen claims processors attempt to determine a new or correct
                   beneficiary address for any undelivered MSNs returned to them. All
                   10 of these claims processors have written procedures. As part of their
                   efforts, they compare the address for the undelivered MSN to addresses
                   listed in the EDB, the Health Insurance Master Record (HIMR), the
                   Common Working File (CWF), and/or the Shared Systems that claims
                   processors use to process Medicare claims.16 In 2012, 5 of the 10 claims
                   processors that verify addresses did so for all of their undelivered MSNs.
                   Two of these claims processors report that they suppress future MSN
                   mailings to undeliverable addresses until those addresses have been
                   updated in their system. The remaining five claims processors verified
                   addresses only for undelivered MSNs that were returned with beneficiary
                   checks, lacked postage, or were not inserted into the envelope properly,
                   which accounted for less than 3 percent of their undelivered MSNs in
                   2012.
                   Despite these efforts to identify new or correct beneficiary addresses,
                   claims processors must use the addresses in their data systems for MSNs.
                   These addresses come directly from SSA. Only beneficiaries can update

                   16
                     SSA maintains the beneficiary address data that populate the HIMR, EDB, CWF, and
                   Shared Systems. SSA maintains the Master Beneficiary Record (MBR) from which the
                   HIMR is established, and beneficiary address data are transmitted electronically from the
                   MBR to the EDB, from the EDB to the CWF, and from the CWF to the Shared Systems.


Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   8
                   their SSA address information. When claims processors identify a new or
                   corrected address, they may direct beneficiaries to contact SSA to register
                   a change of address.
                   Among the sample of undelivered MSNs we reviewed, there were no
                   changes made to 71 percent of the corresponding beneficiary addresses
                   (1,033 of 1,445) in CMS’s system 3 months after the MSNs were returned
                   to claims processors.
                   Five claims processors attempt to determine the reasons MSNs are
                   undeliverable. Two of these five claims processors attempt to determine
                   whether the services on undelivered MSNs are associated with a higher
                   incidence of fraud, waste, and abuse. No claims processors refer
                   information on undelivered MSNs to program integrity contractors.
                   Claims processors identified incorrect or invalid addresses as
                   the most common reason MSNs were undeliverable
                   Among the five claims processors that attempt to determine the reason(s)
                   MSNs were undelivered, the most common reason identified was incorrect
                   or invalid addresses. Such addresses may result from formatting errors in
                   the data systems used by claims processors to print addresses on MSNs.
                   In 2006, CMS recognized that beneficiary address data from the CWF
                   were not populating correctly into the Shared Systems because the address
                   fields in the two had different line length and character configurations.17
                   CMS instructed system maintainers to modify the Shared Systems to
                   accept the complete CWF address.18 However, one claims processor
                   continued to report that MSNs are returned in part because beneficiary
                   address data from the CWF are populated incorrectly into the Shared
                   Systems. In addition, our review of sampled undelivered MSNs identified
                   incomplete beneficiary addresses that appeared to result from incorrectly
                   populated data. For example, a street address on an undelivered MSN
                   might appear as “WHERE BLVD,” when the street address data in STARS
                   was “100 ANY WHERE BLVD.”
                   According to claims processors, other reasons MSNs were undelivered
                   include that the beneficiary was temporarily away, the address’s
                   forwarding order had expired, the MSN had been inserted into the
                   envelope improperly, and the envelope did not have sufficient postage.
                   Among the undelivered MSNs reviewed, two envelopes were returned
                   with handwritten notes indicating that the envelope had insufficient
                   postage for a foreign address.

                   17
                      CMS, Transmittal 205, Change Request 4224. CMS Manual System, Pub. No. 100-20, 

                   “Beneficiary Change of Address.”

                   18
                      Effective July 1, 2006. 



Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   9
                   CONCLUSION AND RECOMMENDATIONS
                   As part of its efforts to reduce Medicare fraud and abuse, CMS relies on
                   beneficiaries to report suspicious activity identified on their MSNs. In
                   fact, a CMS official stated in June 2013 that beneficiaries’ best defense
                   against fraud includes checking their MSNs for accuracy. However, we
                   found that at least 4.2 million MSNs did not reach some of these
                   beneficiaries. Therefore, CMS is missing the opportunity to solicit these
                   beneficiaries’ help in the fight against fraud.
                   Claims processors are responsible for providing MSNs to Medicare
                   beneficiaries, but CMS does not provide claims processors with guidance
                   on whether or how to track or follow up on MSNs that are returned as
                   undeliverable. In addition, the HHS FY 2011 Agency Financial Report
                   identified CMS’s lack of a policy for addressing undelivered MSNs as a
                   weakness in CMS’s financial oversight of Medicare contractors. While
                   we do not know the amount paid by Medicare for services associated with
                   undelivered MSNs, it may total hundreds of millions of dollars.
                   Without guidance for handling undelivered MSNs, claims processors have
                   developed their own approaches. However, these approaches are not
                   consistent across the Medicare program because not all claims processors
                   track or follow up on undelivered MSNs and those that do use a variety of
                   methods.
                   Among claims processors that attempt to determine reasons MSNs are
                   returned as undeliverable, the most common reason identified was
                   incorrect or invalid addresses. We found that that there continues to be a
                   problem with incorrectly populated beneficiary addresses in the data
                   systems that claims processors use to process MSNs.
                   We recommend that CMS:
                   Provide guidance to claims processors about handling MSNs
                   that are returned as undeliverable
                   To help promote consistency and efficiency in activities related to
                   undelivered MSNs, CMS should provide guidance to claims processors
                   about whether and how to track and follow up on undelivered MSNs. This
                   guidance should include instructions to claims processors about whether
                   or when and how to:
                       destroy or store undelivered MSNs,
                       keep a record of the number of undelivered MSNs,
                       record information about undelivered MSNs,
                       verify beneficiary addresses for undelivered MSNs,


Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   10
                   	 ensure that claims processors encourage beneficiaries to register a
                      change of address with SSA when the claims processor is made aware
                      of a new or corrected address,
                   	 analyze information on undelivered MSNs to identify patterns
                      indicative of potential fraud and abuse, and
                   	 refer information on undelivered MSNs to program integrity
                      contractors.
                   Ensure that the address information used by claims
                   processors to print addresses on MSNs is complete and
                   properly formatted
                   CMS should reduce the likelihood that MSNs are returned as
                   undeliverable by ensuring that claims processors have access to the
                   complete beneficiary address information maintained by SSA. Since
                   July 2006, CMS has instructed system maintainers to ensure that the
                   Shared Systems used by claims processors accept the complete beneficiary
                   address from the CWF. CMS should ensure that the Shared Systems
                   contain beneficiary addresses that match the addresses on file in the CWF.
                   Given that we saw examples of incomplete addresses on our review of
                   undelivered MSNs, CMS should also ensure that claims processors are
                   formatting addresses correctly for printing on MSNs.




Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   11
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with both of our recommendations. Regarding the first
                   recommendation, CMS stated that its Office of Communication will work
                   with the Center for Medicare and with claims processors’ Contracting
                   Office Representatives to develop instructions as to what claims
                   processors should do with undelivered MSNs that are returned to them. In
                   addition, CMS stated that it will also explore with claims processors the
                   possible actions that can be taken, within reasonable costs, to reduce the
                   number of returned MSNs.
                   In response to our second recommendation, CMS stated that it will work
                   with SSA to determine if addresses are being altered between when SSA
                   provides them to CMS and when the claims processors retrieve them from
                   the CWF. CMS reported that if it finds that the addresses are being altered
                   in any manner, it will work with appropriate parties to rectify the situation.
                   OIG agrees that this is an appropriate step to take to ensure that
                   beneficiaries are receiving their MSNs.
                   OIG agrees that reducing the number of returned MSNs is an important
                   step in protecting the integrity of Medicare. Ensuring that more
                   beneficiaries receive their MSNs increases the opportunity for
                   beneficiaries to participate in the fight against Medicare fraud and
                   improper payments.
                   The full text of CMS’s comments is provided in Appendix B.




Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   12
APPENDIX A
Number of Undelivered MSNs Reported by Claims Processors for 2012
Table A-1 provides the number of undelivered MSNs reported by each of the 19 claims
processors in operation during calendar year 2012.

Table A-1: Number of Undelivered MSNs Reported By Claims Processors for 2012
                       1                                      Number of Months for Which                       Number of
 Claims Processor
                                                         Claims Processors Reported Data                Undelivered MSNs

 Claims Processor 1                                                                            12                    260,000

 Claims Processor 2                                                                            12                    245,000
 Claims Processor 3                                                                            12                    214,000

 Claims Processor 4                                                                            12                    454,739
                                               2
 Claims Processors 5, 6, and 7 combined                                                        11                    624,527

 Claims Processor 8                                                                            12                    180,000
 Claims Processor 9                                                                            11                      65,000
                                              3
 Claims Processors 10 and 11 combined                                                          12                  1,057,266

 Claims Processor 12                                                                           11                    178,835
 Claims Processor 13                                                                            4                    146,319
 Claims Processor 14                                                                           12                    181,889
 Claims Processor 15                                                                           12                    233,997
 Claims Processor 16                                                               Not provided                 Not provided

 Claims Processor 17                                                                           12                    126,000
 Claims Processor 18                                                                           12                    203,000
 Claims Processor 19                                                                            4                      64,000

    Total                                                                                                          4,234,572
Source: OIG analysis of claims processor surveys, 2013. 

1
  We assigned a unique identifier to each of the 19 claims processors in operation in 2012. 

2
  Claims processors 5, 6, and 7 are affiliated with the same company, which reported the collective number of undelivered MSNs returned 

to the three claims processors. 

3
  Claims processors 10 and 11 are affiliated with the same company, which reported the collective number of undelivered MSNs returned to 

the two claims processors. 





Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)                       13
APPENDIX 8
Agency Comments



  (::f-
     _.. f>~"lC~ 

    ~~-          li-t,




                           DEPARIMENT OF HEALTii & HUMAN SERVICES                                Centers for Medicare & Medicaid Services


                                                                                                 Administrator
                                                                                                 Washington, DC 20201




                          DATE:           JAN -6 2014
                          TO:           Daniel R. Levinson
                                        Inspector General

                          FROM:         Marilyn Tavenner
                                                             /S/
                                        Administrator

                          SUBJECT:      Office oflnspector General (OIG) Draft Report: Over Four Million Medicare
                                        Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03­
                                        12-00600)


                          The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                          comment on the above referenced OIG draft report. The objectives of the report were to
                          determine: (1) the number and nature of undelivered Medicare Summary Notices (MSN)
                          returned to claims processors; and (2) the extent to which Medicare claims processors track and
                          follow up on undelivered MSNs.

                          The CMS response to each of the OIG recommendations follows:

                          OIG Recommendation:

                          The OIG recommend that CMS provide guidance to claims processors about handling Medicare
                          Summary Notices (MSNs) that are returned as undeliverable.

                          CMS Response:

                          The CMS concurs with this recommendation. The Office of Communication will work with the
                          Center for Medicare and the Medicare Administrative Contractor's (MAC) Contracting Officer
                          Representative (CORs) to draft a continuing resolution that will provide instructions to the
                          claims processors on what they should do with undelivered MSNs that are returned to them.
                          CMS will also explore possible actions with the MACs that might reduce the number of returned
                          MSNs that can be performed within reasonable costs.

                          OIG Recommendation:

                          The OIG recommend that CMS ensure that the address information used by claims processors to
                          print addresses on MSNs is complete and properly formatted.




Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)                             14
Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   15
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                   Tanaz Dutia served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Philadelphia regional office who
                   conducted the study include Joanna Bisgaier, Nancy J. Molyneaux, and
                   Russell Tisinger. Central office staff who provided support include
                   Scott Manley and Christine Moritz.




Over Four Million Medicare Summary Notices Mailed to Beneficiaries Were Not Delivered in 2012 (OEI-03-12-00600)   16
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
